1a
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SHERWIN A. BROOK,
an Illinois resident,
as Trustee of the David
North II Trust, successor
to the assets of Cortina
Financial, Inc.,

No. 19-17289
D.C. No.
2:18-cv-01530-JAS
MEMORANDUM*
(Filed Nov. 20, 2020)

Plaintiff-Appellant,
v.
J. LAWRENCE MCCORMLEY,
an Arizona resident; TIFFANY
& BOSCO, PA, an Arizona
professional corporation,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Arizona
James Alan Soto, District Judge, Presiding
Submitted November 16, 2020**
Phoenix, Arizona
Before: BYBEE, MURGUIA, and BADE, Circuit Judges.
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
Plaintiff-Appellant Sherwin A. Brook (Brook)
appeals the dismissal of his diversity action alleging
legal malpractice, breach of ﬁduciary duty, and breach
of contract by Defendants-Appellees J. Lawrence
McCormley (McCormley) and Tiffany & Bosco, P.A.
(T&B) (collectively, Defendants). The district court dismissed Brook’s complaint for lack of subject matter jurisdiction. We have jurisdiction under 28 U.S.C. § 1291.
We review de novo the grant of the motion to dismiss,
Bishop Paiute Tribe v. Inyo Cnty., 863 F.3d 1144, 1151
(9th Cir. 2017) (citation omitted), and we afﬁrm.
Brook is an Illinois resident and trustee of the David North II Trust, which is the successor to the assets
of Cortina Financial, Inc. (Cortina)—a dissolved Arizona corporation. McCormley, an Arizona resident and
an attorney at Arizona law ﬁrm T&B, previously represented Cortina in litigation concerning real property
owned by Cortina in Arizona. Based on a magistrate
judge’s Report and Recommendation, the district court
held that Cortina was the real party in interest and
must be named as plaintiff. Because doing so would destroy complete diversity between the parties, the district court dismissed Brook’s action without prejudice.
Brook argues that the district court abused its
discretion by failing to conduct a de novo review of his
objections to the Report and Recommendation. He contends that the district court “summarily denied all of
[his] timely objections, without discussion,” and asserts that the district court “stopped reading beyond
page 10.” These arguments lack support. The district
court conducted a de novo review of Brook’s objections

3a
in accordance with 28 U.S.C. § 636(b)(1)(C), after expressly setting forth the standard of review in footnote
one of its order. Although Brook points to the order’s
comment that “Plaintiff does not present any meritorious argument for the Court to consider, especially not
in the ﬁrst ten pages of the objection” as an indication
that the district court only read the ﬁrst ten pages of
his oversized brief, this comment instead conﬁrms that
the court reviewed all of Brook’s objections—beyond
the ﬁrst ten pages—and found that they lacked merit.
The district court’s apparent frustration with Brook’s
refusal to adhere to page limitations does not mean
that the court failed its obligation to conduct the required review—a review that it said it conducted.
Where, as here, the district court’s order adopting
the magistrate judge’s Report and Recommendation
explicitly notes that it “has made a de novo determination,” this circuit has found “no reason to question the
de novo review.” Wang v. Masaitis, 416 F.3d 992, 1000
(9th Cir. 2005). As 28 U.S.C. § 636(b)(1)(C) provides “for
a ‘de novo determination’ rather than de novo hearing,
Congress intended to permit whatever reliance a district judge, in the exercise of sound judicial discretion,
chose to place on a magistrate’s proposed ﬁndings and
recommendations.” United States v. Raddatz, 447 U.S.
667, 676 (1980) (citation omitted). We have no reason
to question the district court’s reliance on the magistrate judge’s ﬁndings and recommendations, especially
considering the district court’s order contains sufﬁcient language conﬁrming that it met its de novo review obligation.

4a
Brook relies on United States v. Howell, 231 F.3d
615 (9th Cir. 2000), to argue that the district court
“failed to exercise any discretion in deciding whether
to consider Brook’s motion for certiﬁcation to the Arizona Supreme Court.” In Howell, this Court concluded
that “a district court has discretion, but is not required,
to consider evidence presented for the ﬁrst time in a
party’s objection to a magistrate judge’s recommendation.” Id. at 621 (emphasis added).
Here, the district court made clear that it was exercising its discretion to not address Brook’s new arguments. After acknowledging that Brook moved for
certiﬁcation to the Arizona Supreme Court, the district
court indicated that Brook’s “novel arguments” “should
have been presented to the Magistrate.” The district
court did not want to “provide [Brook] a second bite at
the apple,” and noted that Brook gave “no explanation
as to why [he] could not bring all arguments before the
Magistrate.” See Greenhow v. Sec’y of Health & Hum.
Servs., 863 F.2d 633, 638 (9th Cir. 1988), overruled on
other grounds, United States v. Hardesty, 977 F.2d 1347
(9th Cir. 1992) (“[T]he Magistrates Act was [not] intended to give litigants an opportunity to run one version of their case past the magistrate, then another
past the district court.”). As a result, the district court
concluded that it would “not consider the novel arguments put forth by Plaintiff.” This was not an abuse of
discretion.
Brook next contends that the district court erred
in adopting the magistrate judge’s recommendation
to dismiss Brook’s case because Defendants were

5a
collaterally estopped from relitigating subject-matter
jurisdiction as Brook’s status as the real party in interest under Federal Rule of Civil Procedure 17(a)
was “necessarily determined” in prior litigation in
the Northern District of Illinois. But that court dismissed Brook’s suit for lack of personal jurisdiction
over Defendants without reaching whether there
was complete diversity between the parties and without examining whether Brook or Cortina was the real
party in interest. The Seventh Circuit afﬁrmed and did
not discuss the diversity of the parties. See Brook v.
McCormley, 873 F.3d 549, 553 (7th Cir. 2017). Because
whether Cortina was the real party in interest required to bring suit under Rule 17(a) was never “actually litigated and decided,” collateral estoppel did not
apply to bar Defendants’ contention that the required
joinder of Cortina, the real party in interest, destroys
complete diversity. Janjua v. Neufeld, 933 F.3d 1061,
1065-66 (9th Cir. 2019).
Brook also contends that the district court erred
in adopting the magistrate judge’s ﬁnding that Cortina
was the real party in interest, arguing that he may
bring suit asserting Cortina’s claims without any assignment pursuant to Ariz. Rev. Stat. § 10-1405 and
Arizona appellate decisions interpreting that statute.
But under Arizona law, a “dissolved corporation continues its corporate existence,” id. § 10-1405(A), and
retains the ability to commence a lawsuit in its corporate name, id. § 10-1405(B)(5). Although Brook contends that section 10-1405(B)(5) permits him to sue
on Cortina’s claims without an assignment, section

6a
10-1405 expressly addresses the “[e]ffect of dissolution” of a corporation, and its plain language indicates
that dissolution does not modify any of the rights attendant to corporations, ofﬁcers, directors or shareholders—as set forth in other statutes—to bring suit
or be sued. See, e.g., Ariz .Rev. Stat. § 10-302(1) (authorizing corporation to bring suit “in its corporate name”);
Ariz. Rev. Stat. §§ 10-740 to 10-747 (addressing when
shareholders may bring derivative actions); Ariz. Rev.
Stat. § 10-846 (addressing suits against officers and
directors).
Brook’s citations to Coleman v. New York Merchs.
Protective Co., Inc., No. 1-CACV 09-0411, 2010 WL
2602051 (Ariz. Ct. App. June 29, 2010), Norton v. Steinfeld, 288 P. 3 (Ariz. 1930), Thomas v. Harper, 481 P.2d
510 (Ariz. Ct. App. 1971) (per curiam), and North v.
City of Bullhead (In re North), No: 2:03-bk-15266-RJH
(Bankr. D. Ariz. March 28, 2007), are similarly inapposite. Not only is Coleman an unpublished, non-citable
decision under Ariz. R. Sup. Ct. 111(c), but the court
there did not decide whether the plaintiff ’s administratively-dissolved company was a necessary party, determining only that the plaintiff—an individual doing
business as that company—had capacity to sue and
was the real party in interest. Coleman, 2010 WL
2602051, at *4. And, unlike the individual plaintiff in
Coleman, Brook is not asserting his own claim, but, rather, is attempting to assert a claim that belongs solely
to a dissolved corporation. Id.
In contrast to Norton and Thomas, which were
decided under now outdated Arizona statutes and

7a
common law rules providing that a corporation’s property passed to its stockholders upon dissolution subject
to payment of the corporation’s debts, Norton, 288 P. at
6; Thomas, 481 P.2d at 511, current Arizona law provides that the corporation retains ownership over its
property after dissolution. See Ariz. Rev. Stat. § 101405(B)(1) (“Dissolution of a corporation does not . . .
[t]ransfer title to the corporation’s property.”). Brook’s
citation to In re North is similarly unhelpful to his argument, as the bankruptcy court there plainly concluded that “ownership of a corporation’s assets does
not automatically transfer to the shareholders upon
dissolution, both under current Arizona statutes and
those in effect in 1993.”
The magistrate judge also properly concluded that
Cortina was the real party in interest under Rule 17(a)
because Cortina was the client to which Defendants
owed a ﬁduciary duty relating to the litigation concerning Cortina’s ground lease. The March 2013 letter of
engagement indicating that Defendants were to investigate claims speciﬁcally “relating to a lease of real
property . . . by and between Cortina Financial, Inc., as
lessor and Susan Landon Harris as lessee” provides a
signature block for “Cortina Financial, Inc.” as client—
not Brook. A February 2014 letter from Defendants
discusses the risks “if Cortina is not the prevailing
party in the litigation,” and the May 2014 engagement
letter expanding the scope of Defendants’ services to
include the initiation of a trustee’s sale pursuant to the
deed of trust (under which Cortina is the beneﬁciary),
contains a signature block for “Cortina Financial, Inc.”

8a
and is signed by Brook as Cortina’s “Sec Treasurer.” In
addition, Cortina originally brought suit in the Northern District of Illinois and Brook only substituted in
as plaintiff after questions regarding diversity were
raised. Thus, these facts establish that Brook’s insistence that T&B “was representing him as trustee of the
Trust that was Cortina’s sole shareholder” lacks merit.
Brook next contends that the district court erred
in concluding that the malpractice claims are not assignable under Arizona law. The Arizona Court of Appeals has held that “[m]alpractice claims are regarded
as personal injury claims, and personal injury claims
are not assignable in Arizona.” Botma v. Huser, 39 P.3d
538, 541 (Ariz. Ct. App. 2002).1 “Decisions by the state
courts of appeals provide guidance and instruction and
are not to be disregarded in the absence of convincing
indications that the state supreme court would hold
otherwise.” Burns v. Int’l Ins. Co., 929 F.2d 1422, 1424
(9th Cir. 1991).
The district court properly exercised its discretion
in declining to consider whether Illinois law should
apply to resolve the issue of assignability of the legal
malpractice claims, and whether the magistrate judge
erred in failing to make any determination as to
1

In any event, Brook did not produce any documentation
demonstrating that he is an assignee of Cortina’s legal malpractice claims. Because Arizona law precludes assignment of legal
malpractice claims, Botma, 39 P.3d at 541-43, Brook’s arguments
that he should have been allowed to obtain assignment of
Cortina’s claims or demonstrate that Cortina ratiﬁed his suit under Rule 17(a)(3) also lack merit.

9a
whether Arizona or Illinois law applies, because Brook
failed to raise them before the magistrate judge.
Howell, 231 F.3d at 621.
Because we afﬁrm the dismissal for lack of subject-matter jurisdiction, we do not consider whether
Brook’s attempt to pursue Cortina’s claims violates the
federal anti-collusion statute, 28 U.S.C. § 1359.
We deny Brook’s request that this court certify two
questions concerning section 10-1405(B)(5) and the assignment of legal malpractice claims to the Arizona
Supreme Court. By statute, certiﬁcation is authorized
where “it appears to the certifying court there is no
controlling precedent in the decisions of the supreme
court and the intermediate appellate courts of this
state.” Ariz. Rev. Stat. § 12-1861 (emphasis added). But
where the existing state appellate court decisions provide adequate guidance, certiﬁcation is unnecessary.
See Lyon v. Chase Bank USA, N.A., 656 F.3d 877, 884
(9th Cir. 2011); Louie v. United States, 776 F.2d 819,
823-24 (9th Cir. 1985). Here, neither the disputed statutory language (Ariz. Rev. Stat. § 10-1405(B)(5)) nor
the doctrine prohibiting assignment of legal malpractice claims is “too uncertain to be determined and applied by the federal court,” Louie, 776 F.2d at 823, and
there are state appellate court decisions directly on
point resolving the issues.
AFFIRMED.

10a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Sherwin A. Brook,
Plaintiff,

No. CV-18-01530PHX-JAS
ORDER

v.

J. Lawrence McCormley, et al., (Filed Oct. 15, 2019)
Defendants.
Pending before the Court is a Report and Recommendation issued by Magistrate Judge Maria S. Davila.
(Doc. 25) In the Report and Recommendation, Magistrate Judge Davila recommends that Defendants’ Motion to Dismiss (Doc. 13) be granted and that this
action be dismissed without prejudice. Plaintiff ﬁled a
timely objection.1
Rule 7.2(e)(3) of the Local Rules of Civil Procedure
for the District of Arizona states “Unless otherwise
permitted by the Court, an objection to a Report and
Recommendation issued by a Magistrate Judge shall
not exceed ten (10) pages.”2 A review of the record does
1

The Court reviews de novo the objected-to portions of the
Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ.
P. 72(b). The Court reviews for clear error the unobjected-to portions of the Report and Recommendation. See Johnson v. Zema
Systems Corp., 170 F.3d 734, 739 (7th Cir. 1999); see also Conley
v. Crabtree, 14 F. Supp. 2d 1203, 1204 (D. Or. 1998).
2
The Court notes that even in the Northern District of Illinois, where Plaintiff ’s counsel practices, objections to report and

11a
not show that the Court permitted any extension of
this page limit. Limits, such as these, are intended to
encourage litigants to use their and the Court’s resources efﬁciently. See In re MacIntyre, 181 B.R. 420,
422 (B.A.P. 9th Cir. 1995), aff ’d, 77 F.3d 489 (9th Cir.
1996), and aff ’d, 79 F.3d 1153 (9th Cir. 1996) (ordering
monetary sanctions for attempts to circumvent page
limits as “page limits are important to maintain judicial efﬁciency and ensure fairness to opposing parties”); United States v. Sierra Pac. Indus., No. CIV S09-2445 KJM, 2012 WL 175071, at *1 (E.D. Cal. Jan.
20, 2012) (explaining how page limits help to preserve a court’s resources). In Plaintiff ’s objection,
Plaintiff correctly states, “[d]etailed background facts
are provided in the Complaint, the parties’ memoranda
supporting and opposing dismissal, and in the Magistrate’s Report.” (Doc. 26 at 3.) Plaintiff then devotes
four-and-a-half pages to the background of the claims
and two-and-a-half pages on “The Proceedings to
Date.” Plaintiff even spends a paragraph speculating
on, and erroneously asserting, the motives of this case’s
transfer to Judge Soto. For the sake of accuracy and
clarity, this matter was transferred to Judge Soto, not
to the Tucson Division as asserted in the objection. If
this matter had gone to trial it would have taken place
in Phoenix. Further, it was not transferred due to a
conﬂict of interest or a recusal; this is baseless speculation on the part of Plaintiff, which only serves to
waste valuable space in his limited objection. Plaintiff
recommendations are limited to 15 pages absent prior approval.
LR 7.1.

12a
also questions why this case was referred to different
magistrates once with Judge Soto; the Court will explain. Magistrate Judge Bernardo P. Velasco retired at
the end of March 2019 and his cases were transferred
prior to his retirement. Sometime later, Magistrate
Judge Maria S. Davila was appointed as a full time
United States Magistrate Judge for the District of
Arizona to replace Magistrate Judge Velasco and eventually received most, if not all, of his cases. (See GO
19-08).
Plaintiff does not present any meritorious argument for the Court to consider, especially not in the
ﬁrst ten pages3 of the objection. As the Court ﬁnds that
the Report and Recommendation appropriately resolved Defendant’s Motion to Dismiss (Doc. 13), the
objections are denied.
Accordingly, IT IS HEREBY ORDERED as follows:

3

The Court acknowledges that Plaintiff also moves for certiﬁcation to the Arizona Supreme Court. The local rules provide a
limit of seventeen pages for motions. LRCiv 7.2(e)(1). This motion
or argument should have been presented to the Magistrate. The
Court will not provide Plaintiff a second bite at the apple. See
Friends of the Wild Swan v. Weber, 955 F. Supp. 2d 1191, 1194
(D. Mont. 2013), aff ’d, 767 F.3d 936 (9th Cir. 2014). There is no
explanation as to why Plaintiff could not bring all arguments
before the Magistrate. Therefore, the Court will not consider the
novel arguments put forth by Plaintiff and will treat the ﬁling
solely as an objection to the R+R.

13a
(1) Magistrate Judge Davila’s Report and Recommendation (Doc. 25) is accepted and adopted.
(2) Defendant’s Motion to Dismiss (Doc. 13) is
granted.
(3)

This case is dismissed without prejudice.

(4) The Clerk of the Court shall enter judgment and
close this case.
Dated this 11th day of October, 2019.
/s/ James A. Soto
Honorable James A. Soto
United States District Judge

14a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Sherwin A. Brook,
Plaintiff,
v.
J. Lawrence McCormley,
et al.,

No.
CV-18-01530-PHX-JAS (MSD)
REPORT AND
RECOMMENDATION
(Filed May 21, 2019)

Defendants.
Pending before the Court is Defendant J Lawrence
McCormley and Tiffany & Bosco PA’s Motion to Dismiss. (Doc. 13.) The motion is fully briefed. (Docs. 16,
20.) For the following reasons, the Court recommends
that the motion be granted and that this case be dismissed for lack of subject-matter jurisdiction.
I.

Background
A. Factual Allegations

The Complaint contains the following allegations:
Plaintiff Sherwin Brook, a citizen of Illinois, is trustee
of the David North II Trust (the “Trust”). (Doc. 1, ¶ 9.)
The Trust owned 100% of the shares of Cortina Financial, Inc. (“Cortina”), a now dissolved Arizona corporation. (Id.) Defendant McCormley is an Arizona citizen,
and Defendant Tiffany & Bosco PA (“T&B”) is an Arizona professional association. (Id. ¶¶ 10–11.)

15a
In 1996, Cortina acquired four lots of land in
Scottsdale, Arizona and, shortly thereafter, sold one
of the lots to Susan Landon Harris. (Id. ¶¶ 14–17.)
Cortina and Harris also entered into a ground lease
under which Harris would lease a driveway adjacent
to the conveyed lot. (Id. ¶ 18.) The ground lease was
secured by the lot conveyed to Harris. (Id. ¶ 20.) In
2000, Harris stopped making payments on the lease
and ﬁled suit against Cortina, asserting that she had
acquired sole ownership of the driveway. (Id. ¶ 22.)
Defendants were retained to defend Cortina and
ﬁle counterclaims against Harris. (Id. ¶ 23.) Harris’s
lawsuit was dismissed in 2002 without prejudice. (Id.
¶ 24.) Defendants were engaged again in 2005 to analyze potential claims relating to the ground lease. (Id.
¶ 26.) Defendants prepared a legal memorandum on
the issue. (Id. ¶¶ 26, 28.)
Harris sold the lot in 2011 without paying the
amount due under the defaulted ground lease. (Id.
¶ 29.) In March 2013, Defendants were engaged to analyze the viability of a nonjudicial foreclosure on the
deed of trust. (Id. ¶ 30.) In February 2014, Defendants
advised Cortina to initiate a trustee’s sale. (Id. ¶¶ 31–
33.) In May 2014, Defendants were retained to carry
out the trustee’s sale. (Id. ¶¶ 34, 36.)
In July 2014, McCormley notiﬁed Brook that T&B
would not initiate the trustee’s sale due to T&B’s unwillingness to expose itself to legal liability or to involve itself in the creation of law adverse to its other
clients. (Id. ¶¶ 44–45.) Defendants searched for outside

16a
parties to initiate the trustee’s sale but were unable to
ﬁnd a replacement. (Id. ¶¶ 48–49.)
B. Procedural History
In 2016, Cortina ﬁled suit against Defendants in
the U.S. District Court for the Northern District of Illinois, alleging claims of legal malpractice and breach of
ﬁduciary duty. (Doc. 16 at 67.) After the Illinois district
court questioned whether the parties were diverse—
because Cortina is a dissolved Arizona corporation and
Defendants are Arizona citizens—an amended complaint was ﬁled, substituting Brook in place of Cortina.
(Id.) The Illinois district court subsequently dismissed
the case for lack of personal jurisdiction. (Id. at 67–68.)
The Seventh Circuit Court of Appeals afﬁrmed in an
opinion issued on October 11, 2017. See Brook v.
McCormley, 873 F.3d 549 (7th Cir. 2017).
On May 18, 2018, Brook ﬁled suit in this district
“as Trustee of the David North II Trust, successor to
the assets of Cortina Financial, Inc.” (Doc. 1 at 1 (caption).) He alleges this Court has diversity jurisdiction
under 28 U.S.C. § 1332 because he, an Illinois citizen,
is diverse from Defendants, both Arizona citizens, and
the amount in controversy exceeds $75,000. (Id. ¶ 12.)
Defendants ﬁled their Motion to Dismiss on September 4, 2018. (Doc. 13.) They contend that the Court
lacks subject-matter jurisdiction because (1) Cortina,
not Brook, is the real party in interest and must be
joined because Arizona law precludes the assignment
of legal-malpractice claims, and (2) the substitution of

17a
Brook in this action for Cortina violates 28 U.S.C.
§ 1359, under which the Court “shall not have jurisdiction of a civil action in which any party, by assignment
or otherwise, has been improperly or collusively made
or joined to invoke . . . jurisdiction. . . .”
II.

Standard of Review

A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) may raise either a “facial” or “factual” challenge to the plaintiff ’s jurisdictional allegations. Leite v. Crane Co., 749 F.3d 1117, 1121 (9th Cir.
2014). Here, Defendants raise a factual challenge,
which “contests the truth of the plaintiff ’s factual allegations, usually by introducing evidence outside the
pleadings.” Id. (citing Safe Air for Everyone v. Meyer,
373 F.3d 1035, 1039 (9th Cir. 2004); Thornhill Publ’g
Co. v. Gen. Tel. & Elecs. Corp., 594 F.2d 730, 733 (9th
Cir. 1979)). The plaintiff bears the burden of producing
“competent proof ” establishing that subject-matter jurisdiction exists. Id. (citing Hertz Corp. v. Friend, 559
U.S. 77, 96–97 (2010); Harris v. Rand, 682 F.3d 846, 851
(9th Cir. 2012)).
III. Discussion
A. Real Party in Interest
Defendants argue that Cortina is the real party in
interest and must therefore be joined. The Court
agrees. Because Cortina is an Arizona citizen, like Defendants, joinder would destroy diversity between the

18a
parties; consequently, this Court lacks subject-matter
jurisdiction.
When examining whether the parties are diverse
for purposes of jurisdiction under 28 U.S.C. § 1332, the
Court “must disregard nominal or formal parties and
rest jurisdiction only upon the citizenship of real parties to the controversy.” Bates v. Mortg. Elec. Registration Sys., Inc., 694 F.3d 1076, 1080 (9th Cir. 2012)
(quoting Navarro Say. Ass’n v. Lee, 446 U.S. 458, 461
(1980)); see Fed. R. Civ. P. 17(a)(1) (requiring that actions “be prosecuted in the name of the real party in
interest”). State substantive law governs whether a
party to a diversity action is the real party in interest
under Rule 17(a)(1). Allstate Ins. Co. v. Hughes, 358
F.3d 1089, 1093–94 (9th Cir. 2004), as amended.
Although the Arizona Supreme Court has refused
to address the issue, see Webb v. Gittlen, 174 P.3d 275,
278 (Ariz. 2008), the Arizona Court of Appeals has
clearly held that legal-malpractice claims belong to the
aggrieved client, and that such claims may not be assigned. Botma v. Huser, 39 P.3d 538, 541 (Ariz. Ct. App.
2002). This is because:
the relationship between attorney and client
is of a uniquely personal nature, giving rise to
a “ﬁduciary relation of the very highest character” and . . . considerations of public policy
require that actions arising out of such a relationship not be relegated to the market place
and converted to a commodity to be exploited
and transferred to economic bidders.

19a
Id. (quoting Schroeder v. Hudgins, 690 P.2d 114, 118
(Ariz. Ct. App. 1984)).
The record demonstrates that Cortina—not Brook—
was Defendants’ client: Cortina was the lessor in the
ground lease and the beneﬁciary of the deed of trust
(Doc. 1 at 25–26); a May 2005 legal memorandum prepared by Defendants discusses potential claims that
could be brought by or against Cortina (id. at 23–33);
Defendants were engaged in March 2013 to investigate
claims speciﬁcally “relating to a lease of real property
. . . by and between Cortina Financial, Inc., as lessor
and Susan Landon Harris as lessee. . . .” (id. at 35); the
signature block in the March 2013 letter is for “Cortina
Financial, Inc.,” not Brook (id. at 40); a February 21,
2014 letter from Defendants focuses on the risks “if
Cortina is not the prevailing party in the litigation” (id.
at 43); Defendants were engaged in May 2014 to initiate a trustee’s sale pursuant to the deed of trust (under
which Cortina is the beneﬁciary) (id. at 54); the parties’
May 2014 engagement letter contains a signature
block for “Cortina Financial, Inc.” and is signed by
Brook as Cortina’s “Sec Treasurer” (id. at 59); and the
legal-malpractice claim raised in this lawsuit was
originally brought by Cortina (id. at 67). Furthermore,
although it appears Brook tried to phrase his allegations carefully, many of them indicate that Cortina was
Defendants’ client. (See, e.g., id. ¶ 31 (“Defendants advised Cortina to initiate a trustee’s sale to foreclose on
the Deed of Trust. . . .”).)
As the aggrieved client to which Defendants owed
a ﬁduciary duty, Cortina is the only party that can

20a
assert a legal-malpractice claim arising from Defendants’ handling of the ground lease. See Botma, 39 P.3d
at 542–43. Thus, Cortina is the real party in interest
and must be named as plaintiff under Federal Rule
of Civil Procedure 17(a)(1). Because the inclusion of
Cortina would destroy diversity between the parties,
the Court lacks subject-matter jurisdiction over this
action. See Exxon Mobil Corp. v. Allapattah Servs., Inc.,
545 U.S. 546, 553 (2005) (stating the longstanding rule
that “the presence in the action of a single plaintiff
from the same State as a single defendant deprives
the district court of original diversity jurisdiction over
the entire action”); Allstate Ins. Co., 358 F.3d at 1094–
95 (remanding with instructions to dismiss for lack
of subject-matter jurisdiction where joining the real
party in interest would destroy diversity).
Brook raises several counterarguments, none of
which are availing. First, he contends that the Illinois
district court has already decided the diversity issue
and that this Court is bound to that determination by
the doctrine of collateral estoppel. This argument borders on the frivolous because although the parties
briefed the issue extensively, the Illinois district court
clearly refused to decide it:
Defendants have moved to dismiss for
lack of personal jurisdiction and lack of subject matter jurisdiction. On the latter point,
they argue that diversity of citizenship—the
cited basis for federal jurisdiction—was lacking at the time the suit was ﬁled. The original
plaintiff was Cortina, a now-dissolved Arizona

21a
corporation. After the Court questioned its jurisdiction, an amended complaint was ﬁled
that substituted Brook, an Illinois citizen, for
Cortina. The parties dispute whether, if diversity was lacking at the time the suit was ﬁled,
the substitution of a different plaintiff may
cure the original jurisdictional defect.
The Court need not address that issue,
however, because it concludes that personal
jurisdiction over defendants is lacking in Illinois.
(Doc. 16 at 67-68)1 The express avoidance of the diversity issue necessarily means that the issue was not decided, and that resolution of the issue was not essential
to the judgment. See Novak v. State Parkway Condo.
Ass’n, 141 F. Supp. 3d 901, 906 (N.D. Ill. 2015) (stating
the elements of collateral estoppel under Illinois law,
including that there was a ﬁnal decision on the merits
of the issue and that resolution of the issue was essential to the judgment).2 Consequently, collateral estoppel does not apply.
Brook next argues that he is “a” real party in interest.3 He relies on Ariz. Rev. Stat. § 10-1405(B)(5),
1

Nor did the Seventh Circuit address the issue. See Brook,
873 F.3d at 551–53.
2
Federal courts sitting in diversity “determine the preclusive effect of a state court judgment by applying that state’s preclusion principles.” ReadyLink Healthcare, Inc. v. State Comp.
Ins. Fund, 754 F.3d 754, 760 (9th Cir. 2014).
3
Even if Brook is a real party in interest (which he is not),
that does not change the fact that Cortina is also a real party in
interest that must be named as plaintiff. See Allstate Ins. Co., 358

22a
which provides that “[d]issolution of a corporation does
not. . . . [p]revent commencement of a proceeding by or
against the corporation in its corporate name or any
ofﬁcers, directors or shareholders or affect applicable
statutes of limitation.” Defendants argue that this
statute does not afﬁrmatively grant shareholders the
right to personally assert the claims of a dissolved
corporation; rather, they contend, it states merely that
dissolution does not interfere with any preexisting
right a shareholder may possess to initiate litigation.
Brook disagrees, arguing that the statute “expressly
allows ofﬁcers and shareholders to sue on a dissolved
corporation’s claims without an assignment.”
The Court agrees with Defendants. The clear import of § 10-1405(B) is that dissolution of a corporation
does not affect the status quo regarding certain preexisting circumstances, interests, and rights. See id.
§ 10-1405(B)(1) (providing that dissolution does not
transfer title to the corporation’s property), (B)(2)
(providing that dissolution does not prevent transfer of
the corporation’s stock shares), (B)(6) (providing that
dissolution does not interfere with already pending litigation involving the corporation). Nothing in the statute indicates (expressly or impliedly) that generally
applicable legal principles—e.g., that a corporation is
separate and distinct from its shareholders, see Dietel
v. Day, 492 P.2d 455, 457 (Ariz. Ct. App. 1972), or that
F.3d at 1095 (“Allstate contended at oral argument that both itself and the Ellstroms were the real parties in interest. Even if
we were to accept this contention, the Ellstroms’ mandatory inclusion in the matter would destroy diversity jurisdiction. . . .”).

23a
an aggrieved client is the real party in interest to a legal-malpractice claim, see Botma, 39 P.3d at 542–43—
are no longer applicable.
Brook’s case citations do not convince the Court
otherwise. He relies heavily on Coleman v. New York
Merchants Protective Co., No. 1-CACV 09-0411, 2010
WL 2602051 (Ariz. Ct. App. June 29, 2010), for the
proposition that § 10-1405(B)(5) permits shareholders
to assert a dissolved corporation’s claims. As explained
above, the statute does not have that effect. Furthermore, Coleman is plainly distinguishable. In that case,
the Arizona Court of Appeals relied on evidence showing that the shareholder was the real party in interest;
in other words, the shareholder was asserting his own
claim, not a claim that belonged to the dissolved corporation. See Coleman, 2010 WL 2602051, at *4. The
shareholder in that case did not contend, as Brook does
here, that § 10-1405(B)(5) permits shareholders to assert a claim that belongs solely to a dissolved corporation, nor did the Coleman court so hold. See Coleman,
2010 WL 2602051, at *4.
Brook also engages in a confusing discussion
about why dissolved corporations are never necessary
parties. His argument is fundamentally ﬂawed, however, because it rests on case law that applies outdated
statutory law. He relies on Norton v. Steinfeld, 288 P. 3,
6 (Ariz. 1930), and Thomas v. Harper, 481 P.2d 510, 511
(Ariz. Ct. App. 1971) (per curiam), both of which applied the since-changed rule that, upon dissolution, the
corporation’s property transferred to the shareholders; being the owners of the corporation’s claims, the

24a
shareholders thus could assert the claims without
joining the corporation as a party. Under the current
law, however, the corporation retains ownership over
its property after dissolution. Ariz. Rev. Stat. § 101405(B)(1).
Thus, the underlying justiﬁcation for the Norton
and Thomas holdings is gone. Brook nevertheless argues that the new statute somehow adopted the rule
in Norton and Thomas that a dissolved corporation is
not a necessary party to lawsuits ﬁled after dissolution. He asserts that this rule has been carried through
to the present by an “unbroken line of authorities” that
includes In re North (an unpublished bankruptcy case
in which Brook unsuccessfully advanced a similar argument (see Doc. 16 at 211–35)) and Coleman. Neither
In re North nor Coleman are binding, and, furthermore, neither stand for the proposition advanced here
by Brook. See Coleman, 2010 WL 2602051, at *4 (citing
Thomas for the proposition that shareholders of a dissolved corporation could assert the corporation’s claim
“because on dissolution, legal title to the property of
the corporation passes to” the shareholders (emphasis
added)).
Next, Brook argues that even if Cortina is the real
party in interest, dismissal is prohibited under Federal Rule of Civil Procedure 17(a)(3) because Cortina
has “ratiﬁed” Brook’s ﬁling of the Complaint.4 This
4

Federal Rule of Civil Procedure 17(a)(3) provides:
The court may not dismiss an action for failure to prosecute in the name of the real party in interest until,

25a
argument is also without merit. Brook does not identify the act by which Cortina has ratiﬁed his ﬁling of
the Complaint, nor is it apparent how Cortina could do
so given that the legal-malpractice claim is non-assignable. Cf. Hugh Kelly Enters. v. Ferry-Morse Seed Co.,
577 P.2d 1, 2 (Ariz. Ct. App. 1978) (applying Arizona’s
analogue to Rule 17(a)(3) and holding that assignment
of the account after litigation commenced was a ratiﬁcation by the real party in interest). Moreover, “[t]he
purpose of [Rule 17(a)(3)] is ‘to prevent forfeiture of a
claim when an honest mistake was made.’ ” Jones v.
Las Vegas Metro. Police Dep’t, 873 F.3d 1123, 1128 (9th
Cir. 2017) (quoting Goodman v. United States, 298 F.3d
1048, 1054 (9th Cir. 2002)). There was no mistake here:
the legal-malpractice claim in question was initially
brought by Cortina (which makes sense because, as explained above, Cortina was Defendants’ client), and
Brook only subbed in after the Illinois district court
recognized that Cortina is not diverse from Defendants.
Brook alternatively argues that the legal-malpractice claim is attached to the deed of trust, and that he
can prosecute this action if Cortina transfers the deed
of trust to him. Unsurprisingly, he fails to offer any
authority supporting this proposition, which if true
would permit him to easily circumvent the rule against
after an objection, a reasonable time has been allowed
for the real party in interest to ratify, join, or be substituted into the action. After ratiﬁcation, joinder, or substitution, the action proceeds as if it had been originally
commenced by the real party in interest.

26a
assignment of legal-malpractice claims. In light of the
policy concerns underlying the non-assignability rule,
the Court disagrees that transferring the deed of trust
would have such an effect. See Botma, 39 P.3d at 543
(“To allow the present lawsuit, which was born out of
that [improper] assignment agreement, to proceed in
Botma’s name would be to wink at the rule against
assignment of legal malpractice claims.”).
Finally, Brook makes a pragmatic argument that,
because he is Cortina’s only ofﬁcer and the person with
whom Defendants communicated, the rationale for disallowing the assignment of legal-malpractice claims
does not apply. Although his argument is superﬁcially
appealing, it ignores that corporations are treated as
distinct legal entities unless there is a reason for not
doing so. Dietel, 492 P.2d at 457. Brook has not provided any reason to ignore Cortina’s corporate separateness. Cf. Leppaluoto v. Nazarian, 895 F.2d 1417, at
*1–2 (9th Cir. 1990) (unpublished table decision) (applying California law and ﬁnding that the corporation,
and not the corporation’s shareholders, was the client
and real party in interest to a legal-malpractice
claim).
Cortina is the real party in interest and must be
named as plaintiff. Since doing so would destroy diversity between the parties, this action must be dismissed
for lack of subject-matter jurisdiction. See Allstate Ins.
Co., 358 F.3d at 1095.

27a
B. Collusive Joinder
Defendants argue in the alternative that the substitution of Brook violates the anti-collusion statute,
which provides: “A district court shall not have jurisdiction of a civil action in which any party, by assignment or otherwise, has been improperly or collusively
made or joined to invoke the jurisdiction of such court.”
28 U.S.C. § 1359. This issue need not be reached because Brook and Cortina have failed to successfully
“invoke the jurisdiction” of this Court.5
....
....
....
Accordingly,
IT IS RECOMMENDED that Defendants’ Motion to Dismiss (Doc. 13) be granted.
IT IS FURTHER RECOMMENDED that this
action be dismissed without prejudice for lack of
subject-matter jurisdiction.

5

There does appear to be a clear “jurisdictional motive” for
having Brook, and not Cortina, initiate this lawsuit. Brook, who
is diverse from Defendants, became involved in this lawsuit
only after the Illinois district court recognized that Cortina is
not diverse from Defendants. However, it is not clear that this
motive, standing alone, is sufﬁcient to ﬁnd collusion. See Yokeno
v. Mafnas, 973 F.2d 803, 809–11 (9th Cir. 1992) (explaining that
motive may be relevant to whether an assignment was collusive
under § 1359).

28a
This recommendation is not an order that is immediately appealable to the Ninth Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1) of
the Federal Rules of Appellate Procedure should not be
ﬁled until entry of the District Court’s judgment. The
parties shall have fourteen days from the date of service of a copy of this recommendation within which to
ﬁle speciﬁc written objections with the District Court.
See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 6, 72. The parties shall have fourteen days within which to ﬁle responses to any objections. Filed objections should use
the following case number: No. CV-18-01530-PHXJAS.
Failure to ﬁle timely objections to the Magistrate
Judge’s Report and Recommendation may result in
the acceptance of the Report and Recommendation by
the District Court without further review. See United
States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir.
2003) (en banc). Failure to ﬁle timely objections to any
factual determination of the Magistrate Judge may be
considered a waiver of a party’s right to appellate review of the findings of fact in an order or judgment
entered pursuant to the Magistrate Judge’s recommendation. See Fed. R. Civ. P. 72.
Dated this 21st day of May, 2019.
/s/ Maria Davila
Maria Davila
United States Magistrate Judge

29a
APPENDIX D
Coleman v. New York Merchs. Protective Co.
Court of Appeals of Arizona, Division One,
Department D
June 29, 2010, Filed
1 CA-CV 09-0411
Counsel: Davis Limited, by Greg R. Davis, Scottsdale, Attorneys for Appellant.
Bell Law PLC, by Emilie Bell, Scottsdale, Attorneys for
Appellee.
Judges: SHELDON H. WEISBERG, Judge. MICHAEL
J. BROWN, Presiding Judge, JON W. THOMPSON,
Judge, concurring.
Opinion by:

SHELDON H. WEISBERG

Opinion
MEMORANDUM DECISION
WEISBERG, Judge
P1 New York Merchants Protective Company, Inc.
(“Merchants”) appeals from a judgment granted against
it in favor of Joseph Coleman dba Secure Opportunities Group (“Coleman”) For reasons that follow, we afﬁrm.
BACKGROUND
P2 On October 11, 2007, Coleman ﬁled a complaint
against Merchants. Coleman alleged that he was doing

30a
business as Secure Opportunities Group (“Secure”);
that he entered into a contract with Merchants to act
as a broker for alarm monitoring accounts; and that
Merchants breached the contract by failing to pay half
the commissions due him. The agreement for services
dated January 25, 2007 between Secure and Merchants, was signed by Coleman as director of Secure,
and by the president of Merchants. Coleman requested
damages in the amount of $44,727.66, prejudgment
and post-judgment interest, costs and attorney’s fees.
P3 On November 27, 2007, Merchants ﬁled an answer denying that it owed Coleman any amount under
the contract. It raised the afﬁrmative defenses of accord and satisfaction, fraud in the inducement, and
failure to state a claim upon which relief could be
granted.
P4 In a joint arbitration statement, dated May 20,
2008, Coleman and Merchants agreed as an undisputed fact that “Joseph Coleman does business
as Secure Opportunities Group. Secure Opportunities
Group was an Arizona corporation that was administratively dissolved last year.” Merchants did not allege,
either in its answer or in the joint arbitration statement, that Coleman lacked capacity to sue. After an
arbitration hearing, the arbitrator entered an award
in favor of Coleman for $44,727.66, plus pre-judgment
interest of $3,835.52, and attorney’s fees and costs of
$18,384.07 for a total award of $66,947.25.

31a
P5 Merchants sought a trial de novo in the superior
court.1 The parties ﬁled a joint pre-trial statement. The
parties agreed as an undisputed fact deemed material
by both parties that “On January 25, 2007, Merchants
and Secure Opportunities Group, Inc. . . . entered into
an Agreement for Services . . . ” For the ﬁrst time, Merchants alleged as an issue deemed material by it, but
disputed by Coleman, that “[Coleman] does not have
standing to bring this lawsuit because Joseph Coleman
and Merchants have never had a Contractual relationship. The Contract is between Secure and Merchants.”
P6 After trial, the court found for Coleman and
adopted his proposed ﬁndings of fact and conclusions
of law, including that “Joseph Coleman is an Arizona
resident and does business as Secure Opportunities
Group.” Coleman ﬁled an application for attorney’s fees
in which he noted that Merchants retained new counsel who “developed and offered new defenses and theories.” The court entered a ﬁnal judgment in favor of
Coleman dba Secure Opportunities Group and against
Merchants in the amount of $44,727.66, plus prejudgment interest of $7,425.94 and attorney’s fees and
costs of $38,832.43 for a total judgment of $90,986.03,
plus post judgment interest at the statutory rate of ten
percent per annum. Merchants timely appealed. We
have jurisdiction pursuant to Arizona Revised Statutes

1

Prior to trial, Merchant’s counsel withdrew from further
representation. New counsel appeared for Merchants with cocounsel, a New York attorney, appearing pro hac vice.

32a
(“A.R.S.”) sections 12-120.21(A)(1) (2003) and 122101(B) (2003)
DISCUSSION
P7 The sole argument Merchants makes on appeal is
that Coleman did not have standing or capacity to sue
and was not a proper party plaintiff. It alleges that the
contract was entered into between “two” corporations
and sometime between the execution of the contract
and ﬁling of the complaint, Secure ceased doing business, wound up its affairs and “without notifying Merchants,” simply “morphed into Joseph Coleman d/b/a/
Secure Opportunities Group.” Merchants argues that
Coleman was not a party to the contract; there was no
evidence of an assignment of the cause of action from
the corporation to Coleman; no evidence as to the identity of the shareholders of the corporation; no evidence
as to whether Coleman or the corporation suffered
damages; and that the complaint was never amended
to conform to the evidence. Merchants claims the trial
court erred by not dismissing the action. Coleman
claims the evidence was sufﬁcient to support the trial
court’s ﬁndings.
P8 In a trial to the court, we will not set aside ﬁndings of fact unless they are clearly erroneous; we are
not bound by the court’s conclusions of law or by ﬁndings that present mixed questions of fact and law. Ariz.
R. Civ. P. 52(a); Ariz. Bd. of Regents v. Phoenix Newspapers, Inc., 167 Ariz. 254, 257, 806 P.2d 348, 351 (1991).
At trial, Coleman testiﬁed that Secure is “just a name

33a
I operate in the marketplace. It’s me doing business as
Secure Opportunities.” He answered afﬁrmatively
when asked, “So when it [the contract] says Secure will
perform, that means Joe Coleman?”
P9 On cross-examination, counsel asked Coleman if
the corporation was in existence at the time the parties
entered the contract, and Coleman responded that he
did not believe it was. When counsel asked, “what if I
tell you that it wasn’t dissolved until February 15,
2007,” Coleman responded that “the process had already begun.” He indicated that the corporation was
not formally dissolved, but that “[he] just let it go.”
Coleman admitted that some money received from
Merchants in August 2007 went into the corporation’s
bank account.
P10 After Coleman rested, Merchants made an oral
motion to dismiss, which was denied. Merchants argued that the corporation, not Coleman entered into
the contract with Merchants, and that the proper party
was not before the court. Coleman responded that Secure was a corporation owned by Coleman, that at the
time Merchants breached the contract, it had dissolved, and that Coleman was doing business as Secure. Merchants replied that a right to sue is not
transferred from a corporation to its shareholders.
P11 The judge stated that “purely as a matter of law,
purely as the case exists now, it might be that [Merchants] has a valid claim with respect to who the
proper . . . party plaintiff is.” The judge noted however,
that if he were to dismiss the matter, he would do so

34a
without prejudice to reﬁling the complaint and because
the statute of limitations had not run, “we would be
doing this all over again. Everybody would be starting
again . . . ” Merchants’ counsel indicated he had no objection to the complaint being dismissed without prejudice. The judge noted that Coleman could seek to
amend the complaint to conform to the evidence, but
defense counsel objected that Merchants would be
prejudiced by such an amendment. In that regard, he
remarked that “unfortunately, [Merchants] believes
that the arbitration was ineffectually handled by its
counsel.”
P12 Coleman’s attorney pointed out that no one objected to Coleman’s capacity to sue at the arbitration
hearing. He also indicated that the contract was between Secure, “without any indication of its status,”
and Merchants. The court found that “as a matter of
law, the document presented as the contract between
the parties simply doesn’t reﬂect it was a corporation
in the process.” The court denied Merchants’ motion “in
the interest of judicial economy.”
P13 Under Arizona Rule of Civil Procedure 17(a)
(“Rule”), “[e]very action shall be prosecuted in the
name of the real party in interest.” The Rule further
provides that an action shall not be dismissed because
it is not brought in the name of the real party in interest “until a reasonable time has been allowed after objection for ratiﬁcation of commencement of the action
by, or joinder or substitution of, the real party in interest[.]” (Emphasis added.) The Rule makes it clear that
“an initial mistake in identifying the proper plaintiff

35a
will not be fatal to the action . . . ” and that the Rule is
“intended to prevent forfeiture when determination of
the proper party to sue is difﬁcult or when an understandable mistake has been made.” Toy v. Katz, 192
Ariz. 73, 87, 961 P.2d 1021, 1036 (App. 1997) (quoting
State Bar Comm. Notes).
P14 We note that although the parties frame the
issue as one of standing, the concept of standing technically rests on whether there is a “justiciable controversy.” Citibank (Ariz.) v. Miller & Schroeder Fin.,
Inc., 168 Ariz. 178, 181, 812 P.2d 996, 999 (App. 1990).
Because the Arizona Constitution has “no counterpart
to the ‘case or controversy’ requirement in the federal
constitution[,]” the issue of standing in Arizona is one
of judicial restraint to insure that courts do not render
mere advisory opinions or decide moot issues. Id. at
181-82, 812 P.2d at 999-1000 (quoting Armory Park
Neighborhood Ass’n v. Episcopal Cmty. Serv.s in Ariz.,
148 Ariz. 1, 6, 712 P.2d 914, 919 (1985)). However,
where as here, whether an action should be pursued in
the name of a corporation, its shareholders, or another
individual or entity, concerns who is the real party in
interest under Rule 17(a), not a standing issue. See Toy,
192 Ariz. at 87, 961 P.2d at 1036.
P15 Because the defense that a plaintiff is not the
real party in interest and lacks capacity to sue is not
jurisdictional, it can be waived if not asserted in a
timely manner See Hurt v. Superior Court of Ariz., 124
Ariz. 45, 48-49, 601 P.2d 1329, 1332-33 (1979); Safeway
Ins. Co. v. Collins, 192 Ariz. 262, 266, ¶ 21, 963 P.2d
1085, 1089 (App. 1998). Under Rule 9(a), as interpreted

36a
by our courts, the issue of whether a party is the real
party in interest under Rule 17(a) must be raised either by motion before the answer is ﬁled or by way of
an afﬁrmative defense in the answer, and if not then
raised, any objection to capacity to sue is waived.
Ballard v. Lawyers Title of Ariz., 27 Ariz. App. 168, 169,
552 P.2d 455, 456 (1976).
P16 We have previously held that because a “pretrial
stipulation in the context of a joint pretrial statement
has the effect of amending the pleadings,” an issue regarding capacity to sue may properly come before the
court even if a party may not have raised such issue in
an answer or by motion prior to ﬁling the answer. Lake
Havasu Cmty. Hosp. v. Ariz. Title Ins. & Trust, 141 Ariz.
363, 370-71, 687 P.2d 371, 378-79 (App. 1984), disapproved of on other grounds in Barmat v. John and Jane
Doe Partners, A-D, 155 Ariz. 519, 524, 747 P.2d 1218,
1223 (1987). There, the defendant claimed the plaintiff/hospital lacked capacity to bring the action because
it had transferred its assets and had assigned all
rights of recovery from the action to another entity. It
did not, however, raise this defense in its answer or by
motion prior to ﬁling the answer, but raised it in a joint
pretrial statement. Id. at 370, 687 P.2d at 378. This
court noted, however, that the hospital did not stipulate to this as an issue of fact and law that was material; only the defendant deemed it material. Therefore,
the answer was not amended, and defendant waived
any objection to the hospital’s capacity to bring the
suit. Id. at 371, 687 P.2d at 379. We also noted that,
even assuming there was a stipulation on this issue,

37a
the defendant’s statement regarding lack of capacity to
sue was inadequate under Rule 9(a) because it did not
contain a “speciﬁc negative averment” and “supporting
particulars.”
P17 Similarly, Merchants did not raise the capacity
to sue issue in its answer or by motion prior to filing
its answer. The issue was raised for the first time in
the joint pretrial statement. However, as in Lake
Havasu Community Hospital, Coleman did not stipulate that this issue was material; only Merchants
deemed it material. Further, Merchants failed to comply with the speciﬁcity requirements of Rule 9(a) and
merely alleged that “Plaintiff does not have standing
to bring this lawsuit because Joseph Coleman and
Merchants never had a Contractual relationship. The
Contract is between Secure and Merchants.” It did not
set forth particular circumstances regarding why Coleman dba Secure lacked capacity to sue. We conclude
that this issue has been waived. Although the trial
court denied Merchants’ motion on its merits, we will
afﬁrm the trial court if it is correct for any reason. City
of Phoenix v. Geyler, 144 Ariz. 323, 330, 697 P.2d 1073,
1080 (1985).
P18 Waiver aside, the evidence presented at trial
supported the trial court’s ﬁndings and conclusion that
Coleman had the capacity to sue. Although Coleman
signed the contract as director of Secure and the
parties agreed in the joint pretrial statement that
Merchants entered into an agreement with Secure
Opportunities Group, Inc., Secure was not designated
in the contract as an Arizona corporation. Coleman
testiﬁed that the corporation was in the process of

38a
dissolving at the time Secure entered into the contract
with Merchants. He further testiﬁed that Secure is
Coleman doing business under that name and that
when the contract states that Secure will perform, it
means that Coleman will perform. Coleman’s counsel
also stated that the corporation was defunct when
Merchants breached the contract with Coleman and
when Coleman ﬁled his complaint There was sufﬁcient
evidence for the trier of fact to conclude that Coleman
was a real party in interest under Rule 17(a). See
A.R.S. § 10-1405(B)(5)(2004) (“Dissolution of a corporation does not . . . [p]revent commencement of a proceeding by or against the corporation in its corporate
name or any ofﬁcers, directors or shareholders . . . ”);
Thomas v. Harper, 14 Ariz. App. 140, 141, 481 P.2d 510,
511 (1971) (holding that under former Arizona statute
giving dissolved corporation right to sue, plaintiffs who
were stockholders of a defunct corporation could bring
an action to collect on a promissory note of the corporation because on dissolution, legal title to property of
the corporation passes to stockholders). The trial court
did not err in denying Merchants’ request to dismiss
the action.
P19 Both parties have requested attorney’s fees pursuant to A.R.S. § 12-341.01. As the prevailing party in
this appeal, Coleman is entitled to his costs and his
reasonable attorney’s fees upon compliance with Arizona Rule of Civil Appellate Practice 21(c).

39a
CONCLUSION
P20 For the foregoing reasons, we afﬁrm the judgment of the trial court.
/s/ SHELDON H. WEISBERG, Judge
CONCURRING:
/s/ MICHAEL J. BROWN, Presiding Judge
/s/ JON W. THOMPSON, Judge

40a
APPENDIX E
SIGNED.
[SEAL]
Dated: March 26, 2007
Randolph J. Haines
RANDOLPH J. HAINES
U.S. Bankruptcy Judge
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF ARIZONA
In re

)
)
GERALD D. W. NORTH,
)
Debtor.
)
)
GERALD D. W. NORTH;
NORTH & CO., INC., formerly )
)
an Arizona coporation;
)
SHERMAN BROOK, as
Trustee of the David North )
)
II Trust,, and CERES
INVESTMENTS LIMITED )
)
PARTNERSHIP,
)
Plaintiffs,
)
v.
)
THE CITY OF BULLHEAD )
CITY, an Arizona municipality, )
)
SHEPHEN A. KOHNER;
)
and JAMES F. POLESE,
)
Defendants.
)

Chapter 11
CASE NO:
2:03-bk-15266-RJH
ADVERSARY NO:
2:05-ap-00655-RJH

ORDER GRANTING
BULLHEAD CITY’S
MOTION TO DISMISS

41a
The issue before the Court is whether the involuntary dissolution of an Arizona corporation automatically transfers corporate assets to the shareholders.
The Court concludes that ownership of the corporation’s assets does not automatically transfer to the
shareholders upon dissolution, both under current Arizona statutes and those in effect in 1993.
Background Facts
North & Co., Inc. was involuntarily, administratively dissolved on December 10, 1993 by the Arizona
Corporation Commission. North & Co. then owned approximately 206 of the 237 acres that were subsequently acquired by Bullhead City. Gerald D.W. North,
Debtor herein, and David North II Trust were two of
the shareholders of North & Co.
On April 17, 2000 Bullhead City’s Superintendent
of Streets placed the subject property for sale and
“struck off ” the property to Bullhead City as purchaser
for alleged unpaid special assessment installments. On
May 18, 2001, Bullhead City made an attempt to notify
all interested parties by certiﬁed letter that the redemption period had passed and that interested parties had until June 18, 2001 to redeem the property.
The letter stated, among other things, that unless the
property is redeemed by June 18, 2001, a deed to the
property will be issued to Bullhead City as the purchaser. The property was not redeemed, and the deed
was issued to Bullhead City. Subsequently, Bullhead
City initiated a quiet title action to terminate any

42a
adverse claims to the property it had acquired. Again,
the North & Co. shareholders claim they did not receive notice of this quiet title action, and Bullhead City
received judgment by default.
The Debtor has ﬁled this adversary proceeding
against Bullhead City in an attempt to reverse the taking of the property by Bullhead City and set aside the
allegedly improper default quiet title judgment and
the City’s acquisition of the property. Debtor argues
that Bullhead City acquired the property unlawfully
and for a small fraction of its alleged $12 million value.
Debtor also states that the acquisition of the property
occurred while the Debtor was engaged in his former
Chapter 11 Bankruptcy case, and was therefore in violation of the automatic stay in place at that time. All
of these arguments hinge on the premise that when
North & Co. was administratively dissolved legal title
to its property passed to the stockholders, subject to
payment of the debts of the corporation. Thomas v.
Harper, 481 P.2d 510 (Ariz. App. 1971).
Applicable Statutes
Title 10 of the Arizona Revised Statutes was
amended and renumbered in 1994, with an effective
date of January 1, 1996. The current statute is clear
that dissolution does not automatically transfer a
corporation’s assets.1 But the former version of the
1

The Court does note that in amending the statutes in 1994,
the Arizona Legislature removed any ambiguity or doubt as to the
effect of a dissolution of a corporation on the corporation’s assets.

43a
statutes in effect on December 10, 1993 governed the
dissolution of North & Co. The statutes in effect in
1993 were enacted in 1976 and include Arizona Revised Statutes §§ 10-082 through 10-105 (West 1990)
(hereinafter referred to as “A.R.S.”).2 A corporation
may be dissolved either voluntarily or involuntarily.
Under the 1976 statute, a voluntary dissolution
may be initiated in one of three ways: 1) by the original
incorporators before stock has been issued and before
the corporation has commenced business; 2) by written
consent of all of the shareholders; and 3) by adoption
of a resolution to dissolve by the board of directors with
a vote by shareholders approving the dissolution.3 The
dissolution is then carried out by the corporation itself
and involves the ﬁling of a statement of intent to dissolve, the collection and liquidation of its assets, the
payment and satisfaction of its liabilities, and the
transfer of any remaining assets to its shareholders.4
Once the voluntary dissolution process has been completed by the corporation, the corporation must then
draft and ﬁle articles of dissolution with the Arizona

“Dissolution of a corporation does not: 1. Transfer title to the corporation’s assets.” A.R.S. § 10-1405 (West 2004) (added by Laws
1994, Ch. 223, § 4, eff. Jan. 1, 1996).
2
Unless otherwise indicated all references to the Arizona
Statutes will be to the 1976 version of the statutes in place on the
date of the dissolution of North & Co., which is cited as: A.R.S.
§ XX-XXX (West 1990).
3
A.R.S. §§ 10-082, 10-083, and 10-084.
4
A.R.S. § 10-087.

44a
Corporation Commission and provide the necessary
notice thereof.5
Involuntary dissolution of a corporation and the
liquidation of its assets were governed by A.R.S. §§ 10094 through 10-105. Either the Attorney General of
Arizona or the Arizona Corporation Commission could
initiate proceedings for an involuntary dissolution of a
corporation.6 If the Arizona Corporation Commission
initiates the involuntary dissolution, the process is
conducted within the Commission and is called a revocation of the articles of incorporation.7 If a corporation
meets any one of the six conditions listed, the Commission must issue a certiﬁcate of revocation, ﬁle a copy of
the certiﬁcate in its ofﬁce, and mail a copy of the certiﬁcate of revocation to the corporation.8 Upon the issuance of the certiﬁcate of revocation, the existence of
the corporation shall terminate, subject to a timely application for reinstatement ﬁled by the corporation
within six months of the certiﬁcate of revocation.9
A.R.S. § 10-097 provides jurisdiction for the superior court to liquidate the assets and business of a corporation in an action by a shareholder, an action by a
creditor, if the corporation makes an application to
have its liquidation under the supervision of the court
as part of its intention to dissolve, or in an action ﬁled
5
6
7
8
9

A.R.S. §§ 10-092 & 10-093.
A.R.S. §§ 10-094 or 10-095.
See A.R.S. § 10-095.
A.R.S. § 10-095(C).
A.R.S. § 10-095(D).

45a
by the Attorney General. There is no mention in the
statutes of any proceeding that may be ﬁled by the Arizona Corporation Commission for an involuntary liquidation of the corporation’s assets, or any proceeding
that takes place automatically to wind-up and liquidate the corporation’s assets upon the issuance of a certiﬁcate of revocation by the Commission.
None of the statutes in effect on the date of the
involuntary dissolution of North & Co., Inc. speciﬁcally
indicates an automatic disposition of the assets of a
corporation upon an involuntary dissolution; they only
provide that an action that may be ﬁled by a shareholder, creditor, or the Attorney General, or for the corporation to conduct a voluntary liquidation of the
assets either with or without the state court’s assistance.
Nor do the remaining statutes support Debtor’s
theory of an automatic transfer of the assets to the
shareholders.
A.R.S. § 10-004(A)(2), deﬁnes the general substantive powers of valid corporations, including the power
to sue, be sued, complain, and defend in its corporate
name. A.R.S. § 10-105 provides that when a corporation is dissolved by: 1) the issuance of a certiﬁcate of
dissolution by the Arizona Corporation Commission;
2) a judgment of a court that has not liquidated the
assets and business of the corporation; 3) issuance of a
certiﬁcate of revocation of the articles of incorporation
by the Commission; or, 4) the expiration of a corporation’s stated duration, the dissolution will not take

46a
away or impair any remedy available to or against
such corporation, its directors, ofﬁcers, or shareholders,
for any right or claim existing, or any liability incurred,
prior to the dissolution. In short, even after dissolution,
the corporation continues to have the right to sue or be
sued in its corporate name for any claim or liability
that was incurred before the dissolution.
A.R.S. § 10-101 provides for the discontinuance of
a liquidation action ﬁled in state court. The provision
states “The liquidation . . . may be discontinued at any
time during the liquidation proceedings when it is established that cause for liquidation no longer exists.”
Once this cause has been established, the court is required to dismiss the liquidation proceedings and “direct the receiver to redeliver to the corporation all
its remaining property and assets.” (Emphasis added)
Thus the liquidation of the corporation’s assets is not
necessarily simultaneous with dissolution. They may
occur at the same time, or as part of the same proceeding, but there is no requirement that both take place
as part of the same transaction. Under A.R.S. § 10-097,
a liquidation proceeding may be instituted by a shareholder or a creditor without dissolving the corporation.
Likewise, the corporation could be dissolved due to an
expiration of its duration, or a failure to ﬁle the appropriate documents, or pay the annual fee, without a liquidation action commencing.
Finally, A.R.S. § 10-104 provides for the deposit
with the state treasurer of any portion of the assets
distributable to a creditor or shareholder who is unknown, cannot be found, or is under disability without

47a
a legally competent person available to receive the proposed distribution. This provision suggests that some
entity must conduct a collection of the corporation’s assets and make the distributions to the creditors and
eventually to shareholders. This provision would be
meaningless if there were an automatic transfer of the
corporation’s assets to its shareholders upon the involuntary dissolution.
One main theme of the dissolution and liquidation
process is that the liabilities of the corporation to creditors are to be paid before any distribution is made to
the shareholders. An automatic transfer of the corporation’s assets to the shareholders without payment of
the debts of the corporation is simply not provided for
in the statutes and it would be illogical for a creditor
to have to chase the individual stockholders of a corporation, who may or may not be identiﬁed in the ﬁlings
with the Arizona Corporation Commission,10 to satisfy
the debts of the corporation simply because the corporation was involuntarily or administratively dissolved.
The Court therefore concludes that the statutory
scheme in place at the time of the dissolution of North
& Co., Inc. did not provide for the automatic transfer
of assets of a dissolved corporation to its shareholders.
10

The Corporation Commission does not track the shareholders of corporations per se, although some of the documents
ﬁled with the Corporation Commission may list some of the owners of a corporation. For example, the annual report requires the
corporation to list shareholders or owners with a twenty percent
or more share of any class of stock or who holds a twenty percent
ownership in the corporation.

48a
Under these statutes, there were only two means for a
corporation’s assets to be distributed upon dissolution,
and neither was automatic. First, the corporation could
voluntarily dissolve and conduct its own winding up
and distribution of assets to creditors, with any remaining assets to be distributed to shareholders. Second, the assets could be liquidated through the use of
a state court action ﬁled by the parties authorized under the statutes. Here there was neither a voluntary
dissolution by the corporation nor a state court action
to liquidate the assets.
Case Law
Debtor relies on Thomas v. Harper for the proposition that “[upon] dissolution, the legal title to the
property of the corporation passes to the stockholders
subject to the payment of the debts of the corporation.”11 Thomas is distinguishable from the present
case on a number of grounds.
First, Thomas was decided under a law that was
no longer in effect at the time of the dissolution of
North & Co., Inc.12
11

Thomas v. Harper, 481 P2d 510, 511 (Ariz. App. 1971) (citing Gardiner v. Automatic Arms Co., 275 F. 697 (D.C. 1921); and
19 C.J.S. Corporations § 1730, p. 1489).
12
The Court notes that the Thomas case was decided in
1971, the statute referred to in Thomas, A.R.S. § 10-365(B)
(1956), was repealed and replaced in 1976 with renumbered statutes. The history of A.R.S. § 10-087 shows that it was derived
from former A.R.S. §§ 10-362, 10-364 to 10-366. A.R.S. § 10-087
provides for the procedure to be taken in a voluntary dissolution

49a
Second, the Thomas case addressed whether after
a corporation is involuntarily dissolved by the Arizona
Corporation Commission, its shareholders may sue to
collect the balance due on a promissory note owed to
the corporation, or whether the corporation is an indispensable party and the shareholders are improper parties. But A.R.S. § 10-105 was subsequently enacted in
1976, and there is no historical reference to the prior
statute. Section 10-105 speciﬁcally provides that after
the dissolution, any remedy available to or against the
corporation existing at the time of the dissolution shall
continue. Further, “[t]he shareholders, directors, and
ofﬁcers shall have the power to take such corporate or
other action as shall be appropriate to protect such
remedy, right, or claim.” A.R.S. § 10-105. This speciﬁc

after the ﬁling of a statement of intent to dissolve. This statute
allows for the corporation to continue to exist after ﬁling the statement of intent to dissolve in order for the corporation to wind-up
its affairs, make distributions to creditors, and ﬁnally to distribute the remainder of any assets to shareholders. Although the
corporation continues in existence, upon the ﬁling of a statement
of intent to dissolve, it is prohibited from conducting any business,
except insofar as may be necessary for the winding up of the corporation. A.R.S. § 10-086. A.R.S. § 10-105 does not show the same
historical origins as § 10-087. A.R.S. § 10-105 does not show any
historical connection to the previous statutes, and its historical
note merely indicates that it was added by Laws 1975, Ch. 69 § 2,
eff. July 1, 1976. A.R.S. § 10-105 provides that the involuntary
dissolution of a corporation by the commission, by a judgment of
the state court, if the state court has not liquidated the assets of
the corporation, or by expiration of the corporation’s duration
does not take away or impair any remedy available to or against
such corporation existing at the time of the dissolution. In short,
the corporation may continue post-dissolution to sue and be sued.

50a
grant of power to the shareholders in the 1976 statutes
resolves the only issue decided in Thomas.
Third, the direct holding in Thomas is that “A defunct corporation is a proper party under A.R.S. § 10365, subsec. B [(1956)], but is not a necessary or indispensable party where there exist no debts on the
part of the corporation. . . . This is because on dissolution the legal title to the property of the corporation passes to the stockholders subject to payment
of the debts of the corporation.”13 Thomas does not
hold that the transfer of title to the stockholders is automatic and without any further action by either the
corporation or the state courts, as this Court has found
is required under the statutes in effect from 1976. The
holding in Thomas is entirely in accord with the theme
of the 1976 statutes as summarized above, i.e. that in
the dissolution and liquidation process, the assets of
the corporation are brought together and the liabilities
to creditors are paid, and any remaining assets are to
be distributed to the shareholders. That liquidation
process is not automatic and requires some action by
either the corporation if the liquidation is voluntary or
the state court if the liquidation is involuntary.
Fourth, the present case and Thomas are distinguishable for the simple reason that North & Co. had
creditors. North & Co. held title to real property that
was accruing tax debt. The reason that Bullhead City
“struck off ” the property and effectuated the eventual
13

Thomas, 481 P.2d at 511 (Emphasis added and citations
omitted).

51a
sale of the property was to foreclose and collect the liability for alleged unpaid special assessments against
the real property.
Finally, this case and Thomas are distinguishable
because of the type of property involved. In Thomas,
the issue was whether shareholders could sue on the
balance of a note owed to the corporation, or was the
corporation an indispensable party to the lawsuit.
Here the subject property is real property in which the
corporation held the recorded legal title. This case does
not involve personal property, such as a desk or a
promissory note, that could be transferred without formality. Instead, this case concerns real property, which
can be transferred only by a deed that is properly recorded.14
The Court concludes that, at least after 1976,
Thomas v. Harper does not stand for the proposition
that the assets of the recently dissolved corporation
are automatically transferred to the shareholders. Instead, Thomas merely stands for the proposition that
the shareholders, by virtue of their ownership in the
corporation, will be the eventual owners of any remaining corporate assets after the corporation is liquidated
and the corporate liabilities are paid. Thomas also
stood for the proposition that the shareholders, under
the 1954 statutes, could sue on a promissory note of the
dissolved corporation and it was not an indispensable

14

See A.R.S. § 33-412; and Valley Nat’l Bank v. Hay, 474
P.2d 46 (Ariz. App. 1970).

52a
party. This idea was later adopted in A.R.S. § 10-105,
which became effective in 1976.
Additional cases support this Court’s conclusion
that an involuntary dissolution by the Arizona Corporation Commission does not effect an automatic transfer of the corporation’s assets to the shareholders. In
Ruck Corp. v. Woudenberg15, a contractor operating as
an Arizona corporation entered into a contract for the
construction of a commercial building. Upon learning
that ﬁnancing had not been secured by the owners, the
contractor stopped working on the project and filed
notice and claim of lien on the property for the work
performed. The contractor sued for $17,500 and for
foreclosure of its lien. The owners ﬁled a counterclaim
alleging that the contractor had breached the contract.
The trial court awarded the contractor $16,000 as the
reasonable value of labor and materials furnished, ordered foreclosure and denied the owners relief on their
counterclaim. On appeal, the owners claimed that the
trial court erred when it failed to grant their motion to
join the stockholders of the contractor corporation as
indispensable parties because the contractor had gone
out of business prior to the ﬁling of the state court complaint. The court of appeals held this claim to be without merit due to A.R.S. § 10-105, which provides that
after dissolution the corporation can sue or be sued in
its corporate name.16

15

611 P.2d 106 (Ariz. App. 1980).
Id. at 108; see also United States v. High Country Broad.
Co., Inc., 3 F.3d 1244, 1245 (9th Cir. 1993) (Court rejected argument
16

53a
The Arizona Court of Appeals has addressed the
provisions allowing a corporation to continue in existence after it has been involuntarily dissolved under the
Arizona statutes. In Goldﬁeld Mines, Inc. v. Hand17 the
corporate charter of Goldﬁeld I provided for a corporate existence of only twenty-ﬁve years; the charter
was not renewed, and it expired in 1974.18 Within a few
weeks of the Arizona Corporation Commission’s revocation of Goldﬁeld I’s charter in 1980, the directors and
ofﬁcers of the defunct Goldﬁeld I formed a new corporation with the same name, “Goldﬁeld II.” It was intended that Goldﬁeld II would be a continuation of
Goldﬁeld I, and toward that end, they executed a quitclaim deed purporting to convey the assets of Goldﬁeld
I to one of the ofﬁcers of Goldﬁeld II, backdating the
deed to 1974, a date prior to the expiration of Goldﬁeld
I’s charter. Goldﬁeld II then resolved to accept a quitclaim deed of the property back from the ofﬁcer. The
that the corporation was “non-existent” and cannot be sued because the United States’ claim survived the corporation’s dissolution).
17
711 P.2d 637 (Ariz. App. 1985).
18
The Court notes that the expiration of the stated corporate
duration occurred in 1974, which was prior to the effective date of
the 1976 amendments. Once the 1976 amendments did become
effective, newly enacted A.R.S. § 10-105 provided that if a corporation was dissolved by the expiration of its stated corporate duration, the corporation may amend its articles of incorporation at
any time within ﬁve years of the expiration of the period of duration. Goldﬁeld I made no attempt to comply with renewal provision allowed in § 10-105, and the corporate charter of Goldﬁeld I
was revoked by the Arizona Corporation Commission in 1980. The
Court also notes that appellant Hand’s activities concerning the
subject mining claims began in 1981.

54a
Court of Appeals did not rule on the issue of whether
Goldﬁeld II was the successor of Goldﬁeld I, and instead remanded that matter back to the trial court.
However, as to the issue of whether Goldﬁeld I had met
the ﬁling requirements for the ﬁfteen unpatented mining claims, the Court of Appeals determined that it
could decide that issue. If Goldﬁeld I did not meet the
ﬁling requirements, then it would not matter who the
successor-in-interest was, if any, because the unpatented mining claims would have been abandoned under federal law, and Hand would have a right to take
these unpatented mining claims as his own.
The Federal Land Policy and Management Act
(FLPMA, 43 U.S.C. §§ 1701, et seq., enacted in 1976) for
the ﬁrst time imposed a federal ﬁling requirement for
unpatented mining claims. The Act required the owner
of an unpatented mining claim to ﬁle a copy of the certiﬁcate of notice and either an afﬁdavit of assessment
work or notice of intent to hold the claim with the local
ofﬁce of the Bureau of Land Management. For claims
existing prior to October 21, 1976, including the ﬁfteen
claims purportedly held by Goldﬁeld I, the deadline for
ﬁling the initial compliance was October 21, 1979. Failure to ﬁle by the date required under the Act would
conclusively be deemed as an abandonment of the
claim.
The crux of Hand’s argument was that the expired
corporation could not validly take action to comply
with FLPMA requirements, and therefore the ﬁling
made on behalf of Goldﬁeld I in 1979, while complete
and timely, was null and void. Hand argued that A.R.S.

55a
§ 10-105, the statute that Goldﬁeld II relied upon as
validating the actions of Goldﬁeld I, was inapplicable
because the statute was enacted two years after Goldﬁeld I was dissolved for failure to renew its charter.
The Court of Appeals held that the result would be
the same under either the 1956 or the 1976 statutes.
A.R.S. § 10-364 (1956) permitted corporations whose
charters had expired to continue to act for the purpose
of winding up the corporate affairs. The Court held
that while the corporation could not carry on new business, it could still hold and dispose of its property, collect its assets and discharge its obligations, but only
for purposes of closing its affairs.19 “Corporations may,
as part of the winding up process, ﬁle documents required to protect rights in corporate assets. . . . We conclude that Goldﬁeld I had the power, in winding up its
affairs, to ﬁle the requisite FLPMA documents in order
to preserve its assets.”20 The Court of Appeals also concluded that the new statute, A.R.S. § 10-105, which
was in effect in 1979 when Goldﬁeld I made the federal
ﬁlings, “gave the directors and ofﬁcers of Goldﬁeld I the
power to make the FLPMA ﬁlings in the exercise of
their authority to take such action as might be appropriate to protect the rights of the corporation.”21
The Court of Appeals held that the ofﬁcers and directors of Goldﬁeld I were authorized under the old statute and the new statute to act to preserve the assets or
19
20
21

Id. at 642.
Id. (Citations omitted).
Id. (Emphasis added).

56a
interests of the corporation. If the assets or interests of
the corporation had automatically transferred to the
shareholders upon the dissolution, then the Court of
Appeals’ holding that the ofﬁcers and directors were
allowed to take appropriate action to protect the rights
of the corporation would make no sense. The corporation would have had no assets to protect if they had
been automatically transferred in 1 974 when the corporation was dissolved.
In United Bank v. Sun Valley,22 a corporation’s line
of credit had been renewed after its charter was revoked, and the corporation subsequently executed a
deed of trust to secure the line of credit. The trial court
granted summary judgment on the bank’s foreclosure
and the corporation’s creditors appealed. Their initial
argument is that after the corporation’s charter was
revoked, A.R.S. § 10-105 did not authorize the Bank to
use any reasonable remedy to resolve its claim, but
only authorized a lawsuit on the pre-dissolution obligation. The Bank argued that a lawsuit was not the
sole remedy allowed by the statute and that the taking
of a deed of trust to secure repayment of a pre-dissolution obligation is a remedy that should be allowed
within A.R.S. § 10-105. The Court of Appeals held that
nothing in § 10-105 speciﬁcally limited the available
remedy solely to a lawsuit, and the language of the
statute suggesting a lawsuit is neither mandatory nor
exclusive. The Court allowed the use of the deed of

22

United Bank of Arizona v. Sun Valley Door & Supply, Inc.,
716 P.2d 433 (Ariz. App. 1986).

57a
trust to settle the pre-dissolution claims that the Bank
had against the corporation.
The appellants next argued that the trial court
erred because the winding up provisions allowed in
A.R.S. §§ 10-086 and 10-087 do not apply to the involuntary revocation of a corporation’s charter. Those provisions apply only in a voluntary dissolution, so there
were no post-revocation powers that the corporation
could exercise and any such post-revocation acts are
void. They relied on A.R.S. § 10-095(D), which provides
that upon the issuance of a certiﬁcate of revocation,
“the existence of such corporation shall terminate, . . . ”
The Court of Appeals rejected appellants’ argument and found that even with an involuntary dissolution, the corporation continues to have rights that
allow it to windup its affairs and dispose of the claims
against the corporation. The Court held:
While we agree that upon the issuance of a
certiﬁcate of revocation the corporate entity
ceases to exist, we cannot agree that this terminates a dissolved corporation’s limited statutory rights to ‘wind up’ its affairs even when
the dissolution is otherwise involuntary. See
A.R.S. § 10-087 and A.R.S. § 10-105.
....
[The] corporate powers remained unimpaired
to the extent that it exercised its statutory
rights after revocation. Since it is within the
power of a dissolved corporation to give a note
for a debt which existed before the dissolution,

58a
we conclude that the execution of the deed of
trust by [the corporation] in favor of United
Bank was proper.23
Thus the property of a dissolved corporation does not
automatically transfer to its shareholders upon the
dissolution, but any remaining property may eventually be distributed to shareholders, after the corporation has wound up its affairs, and paid its creditors.
Conclusion
The Court concludes that upon the involuntary
dissolution of North & Co., Inc. the assets of the defunct corporation did not automatically transfer to its
shareholders. An involuntary dissolution of the corporation and the liquidation of a corporation’s assets are
two distinct actions that may occur at or near the same
time, but there is no requirement that they do take
place at the same time.
The assets of the corporation that are not otherwise transferred by an afﬁrmative act of the corporation, or by a judgment of a state court, continue to
remain as assets of the defunct corporation and they
do not automatically transfer to the shareholders of
the corporation.
Because the real property held by North & Co.,
Inc. did not automatically transfer to the shareholders,
it did not become property of this bankruptcy estate
under 11 U.S.C. § 541. Notice to the shareholders of the
23

United Bank, 716 P.2d at 437-38.

59a
tax sale was not required. Accordingly, Bullhead City’s
motion to dismiss is granted.
DATED AND SIGNED ABOVE
Copy of the foregoing e-mailed
this 26th day of March, 2007, to:
Richard R. Thomas, Esq.
Davis Miles, PLLC
P. O. Box 15070
Mesa, AZ 85211
Attorneys for Plaintiff Gerald D.W. North
rthomas@davismiles.com
Dwain D. Fox., Esq.
Fennemore Craig, PLLC
3003 North Central Avenue, Suite 2600
Phoenix, AZ 85012
Attorneys for City of Bullhead City
dfox@fclaw.com
/s/ Pat Denk
Judicial Assistant

60a
APPENDIX F
EXCERPT FROM PLAINTIFF’S OBJECTIONS
TO MAGISTRATE’S REPORT AND RECOMMENDATION AND MOTION FOR CERTIFICATION
OF QUESTIONS TO ARIZONA SUPREME COURT
PURSUANT TO RULE 27, ARIZ.RULES.S.CT.,
June 4, 2019, pp. 30-31 (“CONCLUSION”):
The Magistrate’s Report should be rejected and
Tiffany & Bosco’s motion to dismiss should be denied
with respect to all of the claims in suit. In the alternative, it should be denied with respect to the breach of
written contract claim, and the following questions
should be certiﬁed to the Arizona Supreme Court:
(1) Does A.R.S. § 10-1405(B)(5) continue the
common law rule of Norton v. Steinfeld, 36 Ariz. 536,
288 P. 3 (1930), as incorporated in previous iterations
of the dissolution statute, and allow shareholders, ofﬁcers, and directors of a dissolved corporation to assert
claims belonging to the dissolved corporation in their
own name without joining the dissolved corporation?
(2) Does the general rule against assignment of
legal malpractice claims apply where the assignment
is from a corporation that was administratively dissolved before the attorney-client relationship began, to
a trust that, at all times, was the corporation’s sole
shareholder, where the trustee of the trust was, at all
times, the corporation’s sole ofﬁcer and director, such
that all of the interactions between the attorney and
the corporation, including all conﬁdential communications and all client decisions, were made between the

61a
lawyer and the trustee; where the trust, as assignee of
the claims, is thus not a stranger to the attorney-client
relationship; and where the personal relationship between the client and attorney remains exactly the
same personal relationship after the assignment as it
was before?

